     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




 ANA Garrison at Farah Appeared Well Built Overall but
    Some Construction Issues Should Be Addressed




                                         July 30, 2010




SIGAR Audit-10-14 Contract Performance and Oversight
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


July 30, 2010

Lieutenant General John R. Allen
Acting Commander, U.S. Central Command

General David Petraeus
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Robert L. Van Antwerp
U.S. Army Chief of Engineers and
   Commanding General of the U.S. Army Corps of Engineers

Lieutenant General William B. Caldwell, IV
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

This report discusses the results of a performance audit of two firm fixed-price contracts currently
valued at $68.1 million for the construction of the Afghanistan National Army garrison in Farah Province.
It includes three recommendations to the Commanding General of the U.S. Army Corps of Engineers
(USACE) to address some construction issues observed at the site.

A summary of this report is on page ii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181
and the Inspector General Act of 1978, as amended. We considered comments from USACE, U.S.
Forces-Afghanistan (USFOR-A), and Combined Security Transition Command‐Afghanistan (CSTC-A). In its
comments, USACE concurred with all three recommendations. USFOR-A and CSTC-A both concurred
with the information provided in this report. Copies of the comments are included in appendices II, III,
IV of this report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-10-14 Contract Performance and Oversight                                               Page i
                                                                       SIGAR Audit-10-14                                          July 2010


                    SIGAR
                                                  Special inspector General for Afghanistan Reconstruction
                                                                       ANA Garrison at Farah Appeared Well Built
                .                                                      Overall but Some Construction Issues Should
    Special Inspector General for Afghanistan Reconstruction           Be Addressed
  What SIGAR Reviewed
  One objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security by training
  and equipping the Afghan National Security Forces (ANSF). Current plans call for the Afghanistan National Army (ANA) to
  grow to 171,600 by October 2011. As a result, additional facilities will be needed to train and base the ANA. Combined
  Security Transition Command-Afghanistan (CSTC-A) is funding contracts totaling $68.1 million through the Afghanistan
  Security Forces Fund to establish an ANA garrison in Farah, located in south-western Afghanistan and bordering Iran. The
  ANA began occupying the garrison in October 2009. Built to house 2,000 personnel, the garrison is almost complete and
  was built in two phases by FCEC-UI Projects JV, an Afghan-owned construction firm. The U.S. Army Corps of Engineers
  (USACE) Afghanistan Engineer District (AED)-South provides program management and oversight of construction. This
  report addresses the contracts’ outcomes, USACE oversight, and sustainment of and overall justification for the Farah
  garrison. To accomplish these objectives, SIGAR reviewed all contracts, statements of work, and modifications, and other
  selected files for the garrison; and examined guidance in the Federal Acquisition Regulation (FAR) and the AED District
  Level Quality Assurance Plan for Construction. SIGAR interviewed officials from CSTC-A and the contractor and also
  performed a site inspection of the garrison in January 2010. SIGAR conducted this work in Afghanistan from November
  2009 to June 2010, in accordance with generally accepted government auditing standards.


  What SIGAR Found
  Although the Farah garrison project is nearly complete, Phase I was completed about 16 months past its original
  completion date and Phase II is scheduled to be completed on July 31, 2010, pending acceptance by the ANA. This is
  almost 12 months past its original completion date. The cost of Phase I to CSTC-A, awarded for $29.4 million, increased by
  almost $10 million largely due to contract options exercised by AED-South and changes to the scope of work. In addition,
  issues with security of ground transportation led to an increase of $100,000 to fly in building materials. The cost of Phase II,
  awarded for $34.6 million, decreased by more than $5.7 million due to the removal of line items that duplicated Phase I.
  The garrison overall appeared well constructed; however, we observed some construction issues related to site grading,
  asphalt roads, and drainage ditch maintenance that should be addressed.

  SIGAR found that overall contract management and oversight met contract requirements. Progress payments were
  documented properly, and quality assurance reports met USACE requirements. However, we noted that the Resident
  Management System reports and two modifications for Phase I contained some incorrect information.

  According to CSTC-A, the government of Afghanistan does not have the financial or technical capacity to sustain all ANSF
  facilities; AED is in the process of awarding two contracts to provide operations and maintenance for ANSF facilities. The
  contracts as planned total $800 million over 5 years and will cover 663 ANSF sites.

  CSTC-A did not provide SIGAR with an overall justification for the Farah garrison, such as a rationale for the location of the
  garrison. Various documents we reviewed addressed certain other ANSF facilities, but none addressed garrisons. Rather
  than make a recommendation regarding facility planning, SIGAR is conducting a separate audit of ANSF facilities planning.

 What SIGAR Recommends
 To ensure that the Farah ANA garrison is completed in accordance with the contract and that sustainability issues are
 minimized, SIGAR recommends that the Commanding General, USACE, direct AED-South to:
     1. Ensure` that the site is properly graded around buildings to prevent the pooling of water,
     2. Ensure that the asphalt roads and parking lots are properly compacted to minimize deterioration, and
     3. Consider mitigating silt accumulation in the unlined drainage ditches around the garrison to minimize maintenance.

 USACE concurred with all three recommendations and outlinedi its plans for addressing them. USFOR-A and CSTC‐A both
 concurred with the information provided in this report.

                                For more information contact: SIGAR Public affairs at (703) 602-8742 or PublicAffairs@sigar.mil




SIGAR Audit-10-14 Contract Performance and Oversight                                                                                   Page i
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Construction of The ANA Garrison At Farah Is Not Within The Original Schedule and
    Costs Increased Largely Because AED Exercised Contract Options ...................................................... 4
Overall Contract Management and Oversight Met Requirements............................................................. 12
The Government Of Afghanistan Does Not Have The Capacity To Sustain ANSF Facilities,
    But New Contracts Are To Provide For Sustainment And Training..................................................... 13
CSTC-A Did Not Provide An Overall Justification For The Farah Garrison .................................................. 14
Conclusion ................................................................................................................................................... 16
Recommendations ...................................................................................................................................... 16
Comments ................................................................................................................................................... 16
Appendix I: Scope And Methodology......................................................................................................... 17
Appendix II: Comments From U.S. Army Corps Of Engineers .................................................................... 19
Appendix III: Comments From U.S. Forces-Afghanistan ............................................................................ 22
Appendix IV: Comments From Combined Security Transition Command‐Afghanistan ............................ 23


TABLES

Table 1: Completion Dates and Award Amounts for the Farah ANA Garrison ............................................. 5
Table 2: Modifications to Contract W917PM-08-C-0027, Phase I ............................................................... 6
Table 3: Modifications to Contract W917PM-08-C-0057, Phase II .............................................................. 7


FIGURES AND PHOTOS

Figure 1: Map of Provinces in Afghanistan .................................................................................................. 3
Figure 2: Master Plan of Farah ANA Garrison .............................................................................................. 4
Photo 1: View of Farah ANA Garrison ........................................................................................................... 9
Photo 2: Barracks at Farah ANA Garrison ..................................................................................................... 9
Photo 3: Wastewater Treatment Plant at Farah ANA Garrison ................................................................. 10
Photo 4: Incomplete Grading around Facilities at Farah ANA Garrison ..................................................... 11
Photo 5: Improperly Compacted Asphalt Paving at Farah ANA Garrison ................................................... 11
Photo 6: Unlined Ditches at Farah ANA Garrison ....................................................................................... 12




SIGAR Audit-10-14 Contract Performance and Oversight                                                                                                   Page ii
ACRONYMS

 AED-South                Afghanistan Engineer District-South
 ANA                      Afghanistan National Army
 ANSF                     Afghanistan National Security Forces
 COR                      Contracting Officer’s Representative
 FAR                      Federal Acquisition Regulation
 MOD                      Ministry of Defense
 CSTC-A                   Combined Security Transition Command-Afghanistan
 SIGAR                    Special Inspector General for Afghanistan Reconstruction
 USACE                    U.S. Army Corps of Engineers




SIGAR Audit-10-14 Contract Performance and Oversight                                 Page iii
       ANA Garrison at Farah Appeared Well Built Overall but Some Construction
                             Issues Should Be Addressed


One objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own
security by training and equipping the Afghanistan National Security Forces (ANSF). 1 In 2001, the Bonn
Agreement initially set troop levels for the Afghanistan National Army (ANA) at 50,000. New
requirements call for the ANA to grow to 171,600 by October 2011. As a result of these increases,
additional facilities are needed to train and base the Afghan forces. From fiscal years 2005 to 2010,
about $25 billion has been appropriated for the Afghanistan Security Forces Fund, which provides the
funding to train and equip the ANSF.

The garrison at Farah, located in Farah Province, will house approximately 2,000 personnel. The ANA
began occupying the garrison in October 2009. The Combined Security Transition Command-Afghanistan
(CSTC-A) 2 is funding two contracts for a total of $68.1 million to construct the garrison in two phases.
The U.S. Army Corps of Engineers (USACE) Afghanistan Engineer District (AED)-South 3 awarded two firm
fixed-price contracts 4 for program management and oversight of Phases I and II to FCEC UI Projects JV. 5
This report addresses (1) whether the Farah garrison was constructed within the terms of the contract,
including schedule and cost; 6 (2) whether USACE oversight of the Farah garrison construction was
conducted in accordance with the Federal Acquisition Regulation (FAR), USACE requirements, and
oversight provisions of the contract; (3) what the plans are for sustaining ANSF facilities; and (4) what
CSTC-A’s overall justification for the garrison was.




1
    ANSF includes the Afghan National Army and the Afghan National Police.
2
 The NATO Training Mission-Afghanistan and CSTC-A is a joint command under a single commander. Because
CSTC-A distributes and manages all U.S.-provided funding to support ANSF, this report refers to CSTC-A.
3
 AED officially divided into two sections on August 3, 2009. AED-South is in charge of construction in Regional
Commands South and West, and AED-North manages construction in Regional Commands North and East.

4
  Firm fixed‐price contracts provide for a price that is not subject to any adjustment on the basis of the contractor’s
cost experience in performing the contract. This contract type places upon the contractor maximum risk and full
responsibility for all costs and resulting profit or loss. Firm fixed‐price contracts require the contractor to deliver
services within an agreed‐upon schedule and cost to the United States.
5
 FCEC UI Projects JV is a registered Afghanistan corporation formed by the Fazlullah Construction and Engineering
Co., an Afghan firm, and United Infrastructure Projects, an American firm.

6
    Throughout this report, we refer to “cost” as the cost to CSTC‐A to provide this garrison.




SIGAR Audit-10-14 Contract Performance and Oversight                                                           Page 1
To accomplish these objectives, we reviewed all contracts, statements of work, modifications, and
selected contract files for the Farah garrison. 7 We examined criteria and guidance in the FAR and in the
AED District Level Quality Assurance Plan (DLQAP) for Construction, dated December 15, 2008, and
updated in August 2009. 8 We interviewed officials from CSTC-A, AED-South, USACE, and FCEC UI
Projects JV, and conducted a site inspection of the Farah ANA garrison on January 11 to 14, 2010. We
conducted our work in Afghanistan, from November 2009 to June 2010, in accordance with generally
accepted government auditing standards. Appendix I presents a more detailed discussion of our scope
and methodology. This report is one in a series of Special Inspector General for Afghanistan
Reconstruction (SIGAR) performance audits that examine contract cost, schedule, and outcome;
oversight; and sustainment of ANSF facilities.


BACKGROUND

CTSC-A, in partnership with the government of the Islamic Republic of Afghanistan and the international
community, plans and implements reforms of the ANSF to develop a stable Afghanistan, strengthen rule
of law, and defeat terrorism within its borders. CSTC-A is providing $68.1 million in funding for the
construction of the Farah ANA garrison in Farah province. See figure 1 for a map of the provinces in
Afghanistan.




7
 The FAR defines a contract modification as a minor change in the details of a provision or clause that is
specifically authorized by the FAR and does not alter the substance of the provision or clause.
8
 We examined both documents and determined that for all intents and purposes the criteria found in the
December 2008 document did not change significantly from the August 2009 document.


SIGAR Audit-10-14 Contract Performance and Oversight                                                         Page 2
Figure 1: Map of Provinces in Afghanistan




Source: SIGAR, April 23, 2010.


When completed, the Farah ANA garrison will house approximately 2,000 personnel, in addition to
embedded trainers at the garrison. The project construction was divided into two phases, which
included:

    •    Phase I – barracks, shower/latrine buildings, storage facilities, an embedded training team
         compound for U.S. soldiers; interpreter barracks; and electrical, communications, water supply,
         and sanitation systems;
    •    Phase II – barracks, a multi-purpose athletic field and gymnasium, helipad, medical clinic, central
         receiving warehouse, training center, ammunition storage/arms storage, detention facility, and
         a fire station.

Figure 2 presents the master plan of the garrison.




SIGAR Audit-10-14 Contract Performance and Oversight                                                 Page 3
Figure 2: Master Plan of Farah ANA Garrison




Source: USACE, AED, July 2008.




CONSTRUCTION OF THE ANA GARRISON AT FARAH IS NOT WITHIN THE ORIGINAL SCHEDULE
AND COSTS INCREASED LARGELY BECAUSE AED EXERCISED CONTRACT OPTIONS

Phase I of the Farah ANA garrison was completed about 16 months behind the original completion date.
The cost of Phase I, awarded for more than $29.4 million, increased by almost $10 million. AED-South
exercised contract options totaling $8.9 million, 9 made changes to the contract’s scope totaling
$965,000, and incurred additional security costs of about $100,000. Phase II is about 12 months behind
schedule but is expected to be completed by July 2010. The cost of Phase II, awarded for more than
$34.6 million, was reduced to a final award amount of $28.9 million after AED removed duplicate line
items in the contract. Government delays in reviewing project designs, the construction of an additional
access road, and security issues added time to both phases. Overall, the garrison appeared well built;


9
  Options are line items identified in the original contract as additions that may be included in the contract at the
request of the contracting authority. The options are exercised with a contract modification. In commenting on a
draft of this report, USACE noted it uses contract options as part of its acquisition strategy and that modifications
to a construction contract in any location are expected.




SIGAR Audit-10-14 Contract Performance and Oversight                                                           Page 4
however, we observed some construction issues that should be addressed. Table 1 shows the status of
the schedule and cost for the garrison’s two phases.

Table 1: Completion Dates and Award Amounts for the Farah ANA Garrison
                                      Current
               Original                                    Original Award       Current Award      Percentage
 Phase                                Completion                                                             a
               Completion Date                                    Amount              Amount        Complete
                                      Date

                                                                  $29.4               $39.2
        I      Dec. 31, 2008          Apr. 1, 2010                                                     100
                                                                 million             million

                                                                  $34.6              $28.9
       II      June 22, 2009          July 1, 2010                                          b            92
                                                                 million            million
Source: SIGAR analysis of contract, modifications, notices to proceed, and Resident Management System reports.
Notes:
a
  Percentages are as of May 11, 2010.
b
  Award amount reduced due to removal of duplicate line items for the Phase II contract.

Phase I Is Complete and Costs Increased Largely because AED Exercised Options in the
Contract

The completion date of Phase I was originally December 31, 2008, and was extended to January 5, 2010.
According to the May 11 RMS, construction was complete as of April 2010, about 16 months behind
schedule. AED-South awarded Phase I to the FCEC UI Projects JV on February 12, 2008, for $29.4 million.
AED-South issued ten modifications to the Phase I contract, which expanded the scope of work,
exercised 15 options listed in the original contract, and provided airlift for materials due to security
issues limiting ground transportation. These modifications resulted in cost increases of almost
$10 million. Table 2 summarizes the contract modifications.




SIGAR Audit-10-14 Contract Performance and Oversight                                                             Page 5
Table 2: Modifications to Contract W917PM-08-C-0027, Phase I
 Modification               Date                Purpose                                    Cost/Schedule Change

 P00001                     Mar. 4, 2008        Exercised options for three contract       Cost increased by almost $2.1
                                                line items: construction of a brigade      million
                                                headquarters building, barracks, and
                                                two bachelor officer quarters

 P00002                     Mar. 23, 2008       Increased the size of the embedded         Cost increased by almost
                                                training team compound                     $297,000

 P00003                     May 21, 2008        Exercised options for 12 contract line     Cost increased by more than
                                                items: a garrison building; a              $6.8 million
                                                communications building; barracks;
                                                bachelor officer quarters; morale,
                                                welfare, and recreation facility;
                                                laundry facility; anti-vehicle trench;
                                                paving of roads and parking area;
                                                and a reception building

 P00004                     May 22, 2008        Changed the bank where the                 No change
                                                contractor would receive electronic
                                                payments

 A00001                     June 4, 2008        Changed the building installation          No change
                                                requirement

 P00005                     June 22, 2008       Changed the bank where the                 No change
                                                contractor would receive electronic
                                                payments

 P00006                     Aug. 6, 2008        Provided for the design and                Cost increased by $115,000
                                                construction of a bread-making
                                                facility

 P00007                     Sept. 9, 2008       Added three bachelor officer               Cost increased by $450,000
                                                quarters and three arms storage
                                                buildings, provided for the design
                                                and construction of an additional
                                                access road

 P00008                     Oct. 28, 2008       Due to poor security, materials to         Cost increased by $100,000
                                                the job site were airlifted

 P00009                     Jan. 16, 2010       Added a time extension to the              Completion date extended to
                                                contract                                   January 5, 2010
Source: SIGAR analysis of contract, modifications, notices to proceed, and Resident Management System reports.




SIGAR Audit-10-14 Contract Performance and Oversight                                                              Page 6
In addition to modifications to the contract, AED-South issued two basic change documents for
Phase I. 10 The first basic change document, dated August 29, 2009, stated that the contractor was to
delete the demolition and removal of facilities from the contractor’s mobilization camp that were intially
called for in the contract. Instead, the contractor was to provide all necessary materials, equipment,
and labor to upgrade the electrical systems. The document showed that the estimate for this was
$50,000. The second basic change document, dated January 4, 2010, extended the contract for 201
calendar days with a new completion date of January 5, 2010. AED attributed 155 days to its review of
the Phase I design plans and 46 days for road work outside of the Farah garrison.

According to AED-South documentation, as of May 11, 2010, Phase I was 100 percent complete;
however, the contractor is still addressing some minor construction issues. Additionally, AED-South had
made payments of more than $39.2 million toward the total cost of Phase I.

Phase II is Nearing Completion; Costs Decreased When Duplicate Items Were Deleted

Although Phase II’s completion date was originally June 22, 2009, and was extended to December 27,
2009, the garrison should be completed by July 31, 2010, pending acceptance by the ANA. AED-South
awarded Phase II to FCEC UI Projects JV on June 18, 2008, for $34.6 million. AED-South issued two
modifications to the Phase II contract that did not result in cost increases. One modification removed
duplicate line items that were in the contract for Phase I, which reduced the original award amount by
more than $5.7 million to about $28.9 million. Table 3 summarizes the modifications to the contract.

Table 3: Modifications to Contract W917PM-08-C-0057, Phase II
 Modification              Date                Purpose                                    Cost/Schedule Change

 P00001                    Aug. 26, 2008       Changed terms in administrative            No change
                                               system


 P00002                    Nov. 6, 2008        Administrative correction to delete        Cost decreased by more than
                                               11 contract line items previously          $5.7 million
                                               listed as options under Phase I,
                                               including bachelor officer quarters,
                                               garrison headquarters, barracks,
                                               latrines, laundry, and morale,
                                               welfare, and recreation building
Source: SIGAR analysis of contract, modifications, notices to proceed, and Resident Management System reports.


Phase II had one basic change document. This document, dated January 4, 2010, extended the contract
for 188 days. AED attributed 98 days to delays in its design reviews for Phase II and an additional 90
days for roadwork outside of the Farah garrison. As a result, the contract was extended to December
27, 2009.



10USACE’s Resident Management System generates what is known as a basic change document, which describes
the scope of the change, changes to plans and specifications, the necessity and reason for the change, and the
estimated impact on cost and schedule.




SIGAR Audit-10-14 Contract Performance and Oversight                                                             Page 7
According to AED-South documentation, as of May 11, 2010, AED-South had made payments of more
than $28.5 million toward the total cost of Phase II.

Security Issues Affected both Phases

According to the project manager of FCEC UI Projects, the contractor experienced serious security issues
that affected both phases of construction. Convoys were ambushed, vehicles were destroyed, and
construction materials were stolen. During these incidents, the contractors’ guards and personnel were
injured, and several guards and insurgents were killed. In one incident, more than 50 trucks
transporting material for the project were attacked and delayed for 27 days while the road between
Kandahar and Farah was secured by the Afghanistan National Police. As a result, $100,000 in security
costs were added to the Phase I contract to airlift materials to the site. In another incident, more than
150 of the contractor’s workers were kidnapped, creating serious concerns for their safety until they
were released. Although some were released in a matter of days, others were held for up to 2 months.
According to an Afghan general we interviewed, the kidnapped workers were released after agreeing to
discontinue their work at the garrison.

The Garrison Appeared Well Built although Some Construction Issues Should be Addressed

We conducted a site inspection of the Farah garrison from January 11 to 14, 2010, and found that the
garrison appeared to be well built. See photo 1 for a view of the garrison. However, we found some
problems with construction quality, including inadequate grading, improper compaction of asphalt in
certain areas, and difficult-to-maintain drainage ditches. According to quality assurance reports, the
problems with the asphalt were being addressed prior to our site inspection.

Proper Quality Control Methods Were Used at the Garrison

Based on the criteria described in the contract’s statement of work and related technical specifications,
we inspected the garrison and found it to be well constructed overall. The buildings we inspected had
interior and exterior finishes properly applied and windows and doors installed as specified by the
contract. Electrical conduits and fixtures were installed in most areas and appeared to conform to the
contract requirements.




SIGAR Audit-10-14 Contract Performance and Oversight                                               Page 8
Photo 1: View of Farah ANA Garrison




Source: SIGAR, January 11-14, 2010.


We also inspected barracks at the facility and found them to be well constructed (see photo 2). Further,
we inspected a gymnasium, a pre-engineered steel structure that had been installed and painted, and
found it to be complete and well built. The gymnasium’s insulation and interior finishes were in place
and installed in accordance with the contract.

Photo 2: Barracks at Farah ANA Garrison




Source: SIGAR, January 11-14, 2010.


The wastewater treatment facility shown in photo 3 was complete and in operation during our site
inspection. The facility was designed to accommodate 2,000 occupants. The plant consists of a
manually cleaned bar screen, an aeration basin, settling tanks, and sludge drying beds. We observed
chlorine and chemical feed equipment in a small control building that will clean waste. The facility
appears to be well built and is comprised of the proper treatment components.




SIGAR Audit-10-14 Contract Performance and Oversight                                              Page 9
Photo 3: Wastewater Treatment Plant at Farah ANA Garrison




Source: SIGAR, January 11-14, 2010.


Some Construction Issues Should Be Addressed

We found three construction issues at the Farah ANA garrison: the grading around buildings was not
sloped to carry water away, asphalt in certain areas was not compacted properly, and unlined drainage
ditches will likely be difficult to maintain.

The contract calls for a minimum slope of 5 percent from buildings toward ditches or other drainage
points. At other locations, the contract calls for a minimum slope of 1 percent. We observed that,
although the finish grading around the facilities at the garrison was not yet complete, it did not appear
to be sloped as required to move water away from the buildings (see photo 4). In addition, we observed
low areas near the buildings and sidewalks that should be removed to prevent the pooling or standing of
water.




SIGAR Audit-10-14 Contract Performance and Oversight                                             Page 10
Photo 4: Incomplete Grading around Facilities at Farah ANA Garrison




Source: SIGAR, January 11-14, 2010.


Further, we observed that the asphalt paving in certain areas on the site seemed to have been
compacted improperly. The paving had rough or ragged edges and uneven surfaces (see photo 5). Since
our site inspection, AED-South officials stated that additional testing was being performed on the
asphalt to verify its thickness and compaction quality. If the asphalt is not compacted correctly, craters
could form and the asphalt may deteriorate rapidly. In addition, in our review of quality assurance
reports, we found reports that indicated prior problems with the compaction of asphalt roads at the
garrison.

Photo 5: Improperly Compacted Asphalt Paving at Farah ANA Garrison




Source: SIGAR, January 11-14, 2010.




SIGAR Audit-10-14 Contract Performance and Oversight                                              Page 11
Throughout the site, we observed unlined drainage ditches along the roads, as shown in photo 6. The
ditches appear to conform to design information in the contract documents but are susceptible to
erosion and silt formation that will block the flow of water after a heavy rainfall. These ditches will need
to be cleaned frequently to prevent flooding. We estimate the site has approximately 24,000 feet
(4.5 miles) of unlined ditches.

Photo 6: Unlined Ditches at Farah ANA Garrison




Source: SIGAR, January 11-14, 2010.



OVERALL CONTRACT MANAGEMENT AND OVERSIGHT MET REQUIREMENTS

The progress payments were documented properly and the quality assurance and quality control
reports met USACE requirements. However, the Resident Management System reports and two
modifications for Phase I contained incorrect information and contract files were not in a single location.

Progress payments made to the contractor for the two contracts were documented properly. According
to the FAR, the Contracting Officer’s Representative (COR) is responsible for reviewing payment
vouchers submitted by the contractor and for approving the payments. For example, AED-South
personnel met monthly with the contractor to agree upon the percentage of completed work that
would be acceptable by the contractor and the COR for that month. According to USACE requirements,
the contractor then submits the request for payment to the COR for processing. The alternate
contracting officer reviews and approves the payment request. The contracting officer authorizes the
final payment when the garrison is complete.

Quality assurance reports for Phases I and II generally met USACE criteria. According to USACE
guidance, the Quality Assurance Representative is to complete daily quality assurance reports, and each
site visit must be documented with a quality assurance report. These reports include information on the
construction completed, tests performed, security and safety issues, progress, and problems. For
example, a November 24, 2009, quality assurance report for Phase II noted that the contractor was
given instructions to fix the uneven asphalt layer on the road. Our review of quality control reports for




SIGAR Audit-10-14 Contract Performance and Oversight                                                Page 12
Phases I and II indicated that most quality control procedures were well documented, although no
three-phase inspections were listed for either phase of the garrison. 11

The Resident Management System report for Phase I, dated May 11, 2010, that AED-South provided to
us had some incorrect information. The report indicated the original completion date of Phase I was
March 17, 2009. However, according to the March 6, 2008, notice to proceed, the project was to be
completed 300 days from the date of the letter making the original completion date December 31, 2008.
Additionally, the report showed an award amount of more than $38.2 million, which was not the
amount shown in the contract dated February 12, 2008.

In addition, two of the Phase I modifcations were incorrect. Although Phase I was extended to January 5,
2010, modification P0006 reported that the contract completion date of March 19, 2009, remained the
same. However, none of the previous modifications refers to this date. Further, modification P0009
extended the contract from June 18, 2009, to a new completion date of January 5, 2010. None of the
previous modifications mentions that the project was extended to June 18, 2009.

Moreover, contract files were located in multiple locations, which hampered locating specific
documents. We found required documents at the AED-South headquarters in Kandahar, on the
Resident Engineer’s hard drive, and in the AED field office at the Farah garrison. Additionally, some of
the files were located in Kabul at AED-North. According to AED officials, the contract files were held in
multiple locations due to the split of AED into AED-North and AED-South, which affected the
management of the Farah garrison. AED-South officials also stated that connecting to the Resident
Management System to update the system on the Farah project was problematic, and consequently
some of the records were incomplete. Adequate documentation of contract management and
contractor performance is essential for adequate monitoring and management of projects.


THE GOVERNMENT OF AFGHANISTAN DOES NOT HAVE THE CAPACITY TO SUSTAIN ANSF
FACILITIES, BUT NEW CONTRACTS ARE TO PROVIDE FOR SUSTAINMENT AND TRAINING

CSTC-A officials stated that the government of Afghanistan does not have the financial or technical
capacity to sustain the Farah garrison or other ANSF facilities once they are completed. Since 2002, the
United States and the international community have provided funding for sustainment of the ANA.
According to the CSTC-A 2008 campaign plan, future costs of sustainment may continue through 2025.
In September 2006, AED awarded an operations and maintenance contract for $200 million to Contrack
International Inc. to provide for the sustainment of ANSF facilities. When the current contract expired
on October 15, 2009, AED exercised an option to extend the ANA contract with Contrack International
Inc. until a new contract is awarded. As of March 18, 2010, cost of operations and maintenance at Farah
was more than $1 million.

According to the AED program manager for operations and maintenance, two new contracts for
operations and maintenance for ANSF facilities will be awarded by July 29, 2010. These contracts will
cover ANA and ANP facilities in northern and southern Afghanistan for $450 million and $350 million,
respectively. According to the program manger, these contracts will be for 1 base year plus 4 optional

11
  The three-phase (preparatory, initial, and final) inspection process provides a means for ensuring that all
construction activities, including those involving subcontractors, suppliers, and testing laboratories, comply with
the latest applicable contract drawings, specifications, certified or approved submittals, and authorized changes to
the contract.


SIGAR Audit-10-14 Contract Performance and Oversight                                                        Page 13
years. These contracts will be indefinite delivery/indefinite quantity contracts 12 with task orders for
operations and maintenance activities written against the contracts for specific locations. According to
the program manager for operations and maintenance, a total of 663 sites will be covered over the life
of these contracts. However, not all sites are completed and will be added with task orders as
warranted.

According to the AED program manager for operations and maintenance, the new contracts will require
a training program for Afghan workers in all aspects of operations and maintenance. The program will
be expanded with each additional year to include all regions in Afghanistan. The MOD will begin taking
responsibility in selected locations beginning in 2010 with all locations phased in over time. According
to the program manager, CSTC-A plans to transfer responsibility for all operations and maintenance for
the ANSF facilites to the government of Afghanistan by 2013. The additional optional years for the
contract would be included if all the ANSF facilities are not turned over by 2013.


CSTC-A DID NOT PROVIDE AN OVERALL JUSTIFICATION FOR THE FARAH GARRISON

In the course of our audit, we attempted to document the U.S. plans and justification for the number
and types of ANA facilities, including the Farah garrison. For example, the June 2008 United States Plan
for Sustaining the Afghanistan National Security Forces provides details on how CSTC-A would work with
MOD and Ministry of Interior to increase management and assessment procedures for the ANSF.
Additionally, CSTC-A, in close coordination with the government of Afghanistan, developed the
Campaign Plan for the Development of Afghan National Security Forces in September 2008. The goals of
the plan are to build and develop ministerial institutional capability and to generate and develop the
fielded forces. However, neither of these plans provided information on how current and future ANA
troops will be deployed or the strategic and tactical rationale for the locations of ANA garrisons,
including the one at Farah.

In February 2010, we asked CSTC-A officials for any additional documents or justification for the Farah
garrison. CSTC-A provided us with the Office of the Secretary of Defense, Fiscal Year 2008, Security
Forces Fund Justification for Iraq Security Forces Fund (ISFF) and ASFF. This funding document addressed
several ANSF facilities, including the Farah garrison, and cited an “ANA Master Plan for Facilities
Development, October 2005” as justification. CSTC-A officials were not aware of this document nor
could they locate a copy.

Instead, CSTC-A officials provided us with three documents that they said addressed the Farah garrison
and the overall plan for developing ANA facilities across Afghanistan. However, these documents did
not provide an overall justification for the Farah garrison, such as a rationale for the garrison’s location.

     •   In April 2010, CSTC-A provided us the “Conceptual Master Plan for the ANA.” The document
         addresses the mission and facility requirements for a number of ANA command-level
         sustainment organizations—including the Kabul Military Training Center, a Ministry of Defense
         Compound, a Medical Command, an Acquisition Agency, and an Afghan National Army Training
         Command. The planning and analysis of these ANA facilities appeared detailed and



12
  Indefinite delivery/indefinite quantity contracts may be used to acquire supplies and/or services when the exact
times and/or exact quantities of future deliveries are not known at the time of contract award.


SIGAR Audit-10-14 Contract Performance and Oversight                                                      Page 14
           comprehensive. However, the plan provided to us did not address ANA garrisons, was not
           signed or dated, and was missing numerous pages.
       •   In June 2010, CSTC-A provided another document, “ANSF Comprehensive Master Plan for
           Facilities Development.”13 According to the Executive Summary, the plan “is a living document
           that will be regularly updated as the plans for specific locations are updated or as new sites and
           missions are identified.” However, the Operational Analysis section refers to ANA force goals
           from April 2007, namely 70,000 troops by December 2008, as opposed to the currently planned
           ANA end-strength of 171,600 troops by October 2011. We also reviewed Book 1, which
           according to the Table of Contents addresses the ANA Corps and, specifically, 10 ANA garrisons.
           However, the garrison sections had not been completed; specifically, the Farah garrison section
           noted it would be completed at a later date. We also note that this plan was not signed or
           dated.
       •   Also in June 2010, CSTC-A provided us with Operations Order #01/2010 and a spreadsheet
           labeled “ANA Fielding Plan (Annex K), Version 20.” 14 The Operations Order appears to be an
           overall statement of CSTC-A’s role and its relationship with other organizations. Although the
           order refers to Annex K as an attachment, it provides no additional information about the Farah
           garrison. Annex K is a spreadsheet listing numerous ANA kandaks (battalions) and when they
           are scheduled to attend training and then deploy to a garrison or other facility. Although
           several kandaks are listed for Farah, Annex K does not provide any further information about
           the justification for the Farah garrison.

In our prior reports on the ANA garrisons located at Gamberi and Kunduz, we stated that CSTC-A was
not aware of any planning documents or justification for these garrisons. 15 In its official comments to
those reports, CSTC-A stated that we did not reflect the true state of CSTC-A’s operational planning.
Although we understand CSTC-A’s position, namely, that the rapid operational pace and the ongoing
changing requirements of the ANA are fluid, these same conditions reinforce the need for an overall
planning document and justification for the garrisons and other ANA facilities. Such a document is
important for CSTC-A and the MOD to ensure that, as requirements change, plans can be adapted as
needed and resources can be prioritized and used effectively to achieve overall strategic goals. Without
an ANA facilities plan that reflects current requirements, CSTC-A runs the risk of building facilities that
do not meet MOD needs or are inadequate for the projected ANA force strength. 16




13
  This document was provided on two compact disks, both dated May 2010. One disk addressed the ANA and the
other the ANP.
14
     CSTC-A also provided us with a copy of the 2008 campaign plan, which we had already reviewed.
15
  See ANA Garrison at Kunduz Does Not Meet All Quality and Oversight Requirements; Serious Soil Issues Need to
Be Addressed, SIGAR-Audit-10-09 (Washington, D.C.: April 30, 2010) and ANA Garrison at Gamberi Appears Well
Built Overall but Some Construction Issues Need to Be Addressed, SIGAR-Audit-10-10 (Washington, D.C.: April 30,
2010).
16
 SIGAR is conducting a separate audit to more fully assess facility plans for the ANA and ANP, and determine
whether they reflect current ANSF force goals and strategic, tactical, and operational plans.




SIGAR Audit-10-14 Contract Performance and Oversight                                                     Page 15
CONCLUSION

The United States has provided over $68 million to build this garrison in support of ANA operations in
Farah Province. Although the garrison appears to be well constructed, some construction issues need to
be addressed. Grading at the site was not sufficiently sloped, which will allow water to collect around
buildings. The asphalt roads and parking lots were not all properly compacted and will deteriorate and
need repair. The unlined drainage ditches at the site will need frequent maintenance. To protect the
U.S. investment and provide a sustainable facility for ANA troops, the construction issues we observed
should be addressed.

In addition, CSTC-A did not provide SIGAR with an overall justification for the Farah garrison, such as the
rationale for the garrison’s location. Various documents we reviewed addressed certain other ANSF
facilities, but none addressed garrisons. However, rather than make a recommendation at this time,
SIGAR is conducting a separate audit of ANSF facilities planning efforts.


RECOMMENDATIONS

To ensure that the Farah ANA garrison is completed in accordance with the contract and sustainability
issues are minimized, SIGAR recommends that the Commanding General, USACE, direct AED-South to
address the following construction issues:

1. Ensure that the site is properly graded around buildings to prevent the pooling of water,
2. Ensure that the asphalt roads and parking lots are properly compacted to minimize deterioration,
   and
3. Consider mitigating silt accumulation in the unlined drainage ditches around the garrison to
   minimize maintenance.


COMMENTS

USACE, USFOR-A, and CSTC-A provided written comments on a draft of this report. These comments are
reproduced in appendices II, III, and IV, respectively.

USACE concurred with the three recommendations. USACE noted that it conducted a site evaluation to
assess the construction issues we raised. As a result, USACE took steps to correct the grading and it
determined that the asphalt areas are currently properly compacted. However, it will ensure that any
subsequent pavement failures are addressed under the contract warranty. USACE also determined that
the unlined drainage ditches are a low-cost solution for drainage, but plans to monitor the ditches for
high amounts of erosion and will take corrective action, as necessary. Finally, USACE provided clarifying
information about its use of contract options, which we incorporated into the report.

USFOR-A concurred with the information provided in the report. CSTC-A also concurred with the
observations in the report and provided additional information about how ANSF force structure growth
decisions are made and implemented.




SIGAR Audit-10-14 Contract Performance and Oversight                                                Page 16
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of the Combined Security Transition Command-Afghanistan (CSTC-A) project to
construct an Afghanistan National Army (ANA) garrison in Farah. This report addresses (1) whether the
Farah garrison was constructed within the terms of the contract, including schedule and cost;
(2) whether U.S. Corps of Engineers (USACE) oversight of the Farah garrison construction was conducted
in accordance with the Federal Acquisition Regulation (FAR), USACE requirements, and oversight
provisions of the contract; and (3) what the plans are for sustaining ANSF facilities; and (4) what
CSTC-A’s overall justification for the garrison was.

To examine contract outcomes, including schedule and cost, we met with officials from CSTC-A,
Afghanistan Engineer District (AED) South, USACE, and the prime contractor Fazlullah Construction and
Engineering Co. United Infrastructure Projects Joint Venture (FCEC UI Projects JV). We reviewed the
contracts, statements of work, notices to proceed, and modifications for Phases I and II. We conducted a
site inspection of the Farah ANA garrison from January 11 to 14, 2010, to observe the project and
identify any quality assurance issues that AED-South would need to address. We used computer-
processed data from the USACE’s Resident Management System to determine the progress and
payments made to date for each contract we reviewed. In addition, the Resident Management System
provided information on issues and challenges for each contract. Although the Resident Management
System had errors, we determined that these data were sufficient for the purposes of our review.

To examine the contracting process and oversight, we met with officials from CSTC-A, AED-South, and
FCEC UI Projects JV. We reviewed criteria and guidance in the FAR and the AED District Level Quality
Assurance Plan for Construction, dated December 15, 2008, and the one dated August 2009, to
determine if oversight of the contract met requirements. We reviewed contract award documentation,
solicitation paperwork, contracts, statement of work, notices to proceed, and modifications for the
Farah garrison. We reviewed and analyzed quality assurance reports for Phases I and II for October
through December 2009. We reviewed and analyzed quality control plans for each contract and quality
control reports for selected months for Phase I (October 2008 and 2009) and Phase II (July 2009) to
determine if the reports met USACE guidance. We reviewed progress payments obtained from
AED-South to determine if payments on the contract were in accordance with the FAR and USACE
guidance. In conducting the audit, we assessed the internal controls pertinent to our audit objectives
and the administration and oversight of the project. Specifically, we identified and reviewed internal
and management control procedures required by the FAR and the AED District Level Quality Assurance
Plan for Construction. We relied on available documents in the contract files and analyzed these
documents to determine if the internal controls for this project were adequate. The specific results of
our review are contained in the findings sections of the report.

To determine U.S. government efforts to transfer the Farah garrison to the government of Afghanistan
and provide for its sustainment, we met with officials from CSTC-A and AED to identify any sustainment
plans the government of Afghanistan has in place. We reviewed the current operations and
maintenance contract to determine the total cost to sustain the ANSF facilities.

To determine the strategic and tactical reasons why the Farah garrison is located where it is, as well as
other ANA and ANP facilities, we reviewed CSTC-A’s September 2008 Campaign Plan for the
Development of Afghan National Security Forces and the June 2008 United States Plan for Sustaining the




SIGAR Audit-10-14 Contract Performance and Oversight                                              Page 17
Afghanistan National Security Forces. As noted in the text, we also reviewed other documents provided
to us by CSTC-A.

This report is one in a series of Special Inspector General for Afghanistan Reconstruction performance
audits that examines contract cost, schedule, and outcome; oversight; and sustainment. We conducted
work in Kabul, Afghanistan, and Washington, D.C., from November 2009 to June 2010 in accordance
with generally accepted government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. The audit was
conducted by the Office of the Special Inspector General for Afghanistan Reconstruction under the
authority of Public Law No. 110-181, and the Inspector General Act of 1978, as amended.




SIGAR Audit-10-14 Contract Performance and Oversight                                           Page 18
APPENDIX II: COMMENTS FROM U.S. ARMY CORPS OF ENGINEERS




SIGAR Audit-10-14 Contract Performance and Oversight      Page 19
SIGAR Audit-10-14 Contract Performance and Oversight   Page 20
SIGAR Audit-10-14 Contract Performance and Oversight   Page 21
APPENDIX III: COMMENTS FROM U.S. FORCES-AFGHANISTAN




SIGAR Audit-10-14 Contract Performance and Oversight   Page 22
APPENDIX IV: COMMENTS FROM COMBINED SECURITY TRANSITION
COMMAND‐AFGHANISTAN




SIGAR Audit-10-14 Contract Performance and Oversight      Page 23
SIGAR Audit-10-14 Contract Performance and Oversight   Page 24
                 This report was conducted under the audit project code SIGAR-014A).




SIGAR Audit-10-14 Contract Performance and Oversight                                   Page 25
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction is to enhance oversight of
                              programs for the reconstruction of Afghanistan by
                              conducting independent and objective audits, inspections,
                              and investigations on the use of taxpayer dollars and
                              related funds. SIGAR works to provide accurate and
                              balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies,
                              and other decision-makers to make informed oversight,
                              policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
